                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 27, 2013

Bradley A. Adams, WT 9C-K

REQUEST FOR MANAGEMENT DECISION – EVALUATION 2012-14789 – REVIEW OF
TVA’S CAPITAL PROJECTS APPROVAL PROCESS



Attached is the subject final evaluation report for your review and management decision.
You are responsible for determining the necessary actions to take in response to our
findings. Please advise us of your management decision within 60 days from the date of
this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Lindsay J. Denny,
Auditor, at (865) 633-7349 or Gregory R. Stinson, Director, Evaluations, at (865) 633-7367.
We appreciate the courtesy and cooperation received from your staff during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

LJD:HAC
Attachment
cc (Attachment):
     Peyton T. Hairston, Jr., WT 7B-K                       Richard W. Moore, ET 4C-K
     Janet C. Herrin, WT 7A-K                               Charles G. Pardee, WT 7B-K
     William D. Johnson, WT 7B-K                            Michael D. Skaggs, LP 6A-C
     Dwain K. Lanier, MR 3K-C                               John M. Thomas III, MR 6D-C
     Justin C. Maierhofer, WT 7B-K                          Andrea L. Williams, WT 9B-K
     Robin E. Manning, MR 3H-C                              OIG File No. 2012-14789




      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
      distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
              is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 27, 2013

David H. Schavey, LP 3R-C

FINAL REPORT – EVALUATION 2012-14789 – REVIEW OF TVA’S CAPITAL PROJECTS
APPROVAL PROCESS



Attached is the subject final evaluation report for your review. Your written comments,
which addressed your management decision and actions taken, have been included in the
report. No further action is needed at this time.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Lindsay J. Denny, Auditor, at (865) 633-7349 or
Gregory R. Stinson, Director, Evaluations, at (865) 633-7367. We appreciate the courtesy
and cooperation received from your staff during the evaluation.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K




      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                         Evaluation Report
                                                              To the Director, Capital
                                                              Productivity and Economic
                                                              Analysis and the Vice President,
                                                              Nuclear Business Operations




REVIEW OF TVA’S
CAPITAL PROJECTS
APPROVAL PROCESS




Audit Team                                                                                            Evaluation 2012-14789
Lindsay J. Denny                                                                                        September 27, 2013
E. David Willis

             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Evaluation Report




ABBREVIATIONS
CEO                        Chief Executive Officer
CP&EA                      Capital Productivity and Economic Analysis
NPG                        Nuclear Power Group
OIG                        Office of the Inspector General
          ®
PMBOK                      Project Management Body of Knowledge
PMI                        Project Management Institute
PMO                        Project Management Office
PRB                        Project Review Board
PSO                        Power System Operations
R3                         Risk and Readiness Review
SBU                        Strategic Business Unit
SPP                        Standard Programs and Processes
TVA                        Tennessee Valley Authority
VP                         Vice President




Evaluation 2012-14789

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                           Evaluation Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS AND RECOMMENDATIONS ................................................... 3
   CAPITAL PROJECTS APPROVAL PROCESS IS GENERALLY
   TIMELY AND EFFICIENT ............................................................................... 3
      Area for Improvement Exists Related to Forecasted Schedules . .............. 4
      Inefficiency Existed in the Approval Workflow for Phase 1
      (Study and Preliminary Engineering) ......................................................... 5

   CAPITAL PROJECT APPROVAL PROCESS IS BEING
   PERFORMED IN ACCORDANCE WITH TVA POLICIES ................................ 5
      Project Charges Are Appropriately Classified ............................................ 6

   TVA HAS INCORPORATED BEST PRACTICES............................................. 7

RECOMMENDATIONS .................................................................................. 8

APPENDIX
MEMORANDUM DATED SEPTEMBER 9, 2013, FROM DAVID H. SCHAVEY
TO ROBERT E. MARTIN




Evaluation 2012-14789

                                    TVA RESTRICTED INFORMATION
                           Evaluation 2012-14789 – Review of TVA’s
                              Capital Projects Approval Process
                                   EXECUTIVE SUMMARY
     Why the OIG Did This Evaluation

         This review was initiated as a follow up to a recent (OIG) Office of the
         Inspector General review of the project management software,
         PowerPlant.i During that review, we identified several areas for further
         analysis related to timely project approvals, delegated approvals, and
         project charges allocated incorrectly. The objective of our review was to
         determine if Tennessee Valley Authority’s (TVA) capital project approval
         process is (1) efficient and timely, (2) being performed in accordance with
         TVA policies, and (3) aligned with industry best practices.

     What the OIG Found

         We found the capital projects approval process is generally being
         performed in a timely manner as well as in accordance with TVA policies.
         We also found TVA has incorporated best practices in the approval
         process. However, we found areas for improvement related to the
         timeliness of Nuclear Power Group (NPG) project approvals and the
         forecasting of project schedules.

         We found that although the overall TVA project approval process was
         completed in a reasonable time frame, the NPG approval process took
         25 days longer than the TVA average. This indicates there are
         opportunities for improvement in the timeliness of NPG approvals.

         We identified 31 percent of the projects reviewed came in more than
         25 percent behind the forecasted schedule. While there were also
         projects that came in ahead of schedule, the degree to which the
         schedules are being missed indicates there is potential for more accurate
         planning related to forecasted schedules.

     What the OIG Recommends

         We recommend the Vice President (VP), Nuclear Business Operations,
         evaluate the approval process for Nuclear capital projects to identify
         opportunities to improve the timeliness of project approvals.

         We recommend the Director, Capital Productivity and Economic Analysis
         (CP&EA), evaluate the planning and forecasting process to identify areas
         for improvement.


i
    Inspection 2012-14531 – Completion of Project/Portfolio Management Function issued on September 28,
    2012.
                                                                                                 Page i

                                  TVA RESTRICTED INFORMATION
                 Evaluation 2012-14789 – Review of TVA’s
                    Capital Projects Approval Process
                         EXECUTIVE SUMMARY
TVA Management’s Comments

This report contained recommendations to two parties. The VP, Nuclear
Business Operations, responded in writing and agreed with the findings and
recommendations in this report (see the Appendix for his complete response).
The Director, CP&EA, had no comments on the draft report.

Auditor’s Response

The OIG concurs with the comments and completed actions to address our
recommendation received from the VP, Nuclear Business Operations. We
will assess the response of the CP&EA organization as part of our normal
recommendation follow-up process.




                                                                       Page ii

                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                        Evaluation Report


BACKGROUND
In fiscal years 2013 through 2015, the Tennessee Valley Authority (TVA) plans to
spend about $2 billion per year on capital projects. Capital projects are major
investments with long-term value that require coordination of many different
activities, people, and equipment. In response to recent capital project problems,
TVA began a Capital Productivity Initiative in 2012. This initiative’s goal is to help
define and prioritize the tools, processes, training, and actions to make sure TVA
is getting the most from its capital dollars.

In 2012, the Capital Productivity Initiative implemented Risk and Readiness
Reviews (R3) of existing capital projects. These reviews are intended to quickly
assess a project’s health. The R3s became a formal process in August 2012
when TVA-SPP-34.020, Capital Project Risk and Readiness Review Process,
went into effect. An R3 is required for capital projects greater than $10 million.
Additionally, TVA-SPP-19.3, Project Justification Process,1 states Strategy and
External Relations2 will review the economic analysis provided by the Strategic
Business Unit (SBU) for all new capital projects greater than $8 million.

According to TVA-SPP-19.3, projects are approved in a three-phase
authorization process: (1) Study and Preliminary Engineering, (2) Detailed
Engineering, and (3) Implementation. The phased approach provides a review
period at phase completion to refine remaining phase project cost and schedule
estimates, verify project benefits can be obtained, and identify areas that need
additional attention prior to committing to the complete project. Phase 1 includes
evaluation and/or preliminary engineering work to establish the objective, scope,
success criteria, and viability of the project. This phase is concluded when the
design authorization is approved or when the proposed project is canceled.
Phase 2 includes all engineering work necessary to specify the full actions
required to implement the project. This phase is completed with the approval of
the design deliverables and the authorization of the implementation phase.
Phase 3 includes reviewing all documentation required to construct and test the
recommended project solution, acceptance testing, and as-built preparation.
Phase approval is not required for projects less than $2 million, facility
maintenance projects, or projects that implement an in-kind replacement.

In March 2011, TVA implemented PowerPlant, a fixed assets and project portfolio
management system. The system changed the approval process from a manual
approval process to an automated approval process. For fiscal year 2012, there
were 166 capital projects totaling $677.5 million that received initial approval.




1
    TVA-SPP-19.3, Revision 1 was effective during the audit scope. Revision 2 became effective May 1,
    2013.
2
    The Capital Productivity and Economic Analysis (CP&EA) group now performs this review.
Evaluation 2012-14789                                                                             Page 1

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Evaluation Report


OBJECTIVE, SCOPE, AND METHODOLOGY
This review was initiated as a follow up to a recent Office of the Inspector
General (OIG) review, Inspection 2012-14531 – Completion of PowerPlant’s
Project/Portfolio Management Function, of the project management software,
PowerPlant. During that review, we identified several areas for further analysis
related to timely project approvals, delegated approvals, and project charges
allocated incorrectly. The objective of our review was to determine if TVA’s
capital project approval process is (1) efficient and timely, (2) being performed in
accordance with TVA policies, and (3) aligned with industry best practices.

To achieve our objective, we:

   Interviewed TVA personnel and reviewed SPP (Standard Programs and
    Processes) to identify the process for approving capital projects within each
    SBU, at the Project Review Board (PRB), and board levels.
   Obtained PowerPlant reports and queries to determine if the approval process
    was being performed in a timely manner.
   Selected a judgmental sample of 50 projects from a total population of
    1,114 projects that have been approved since the implementation of
    PowerPlant to test:
    - Compliance with approval authority, delegation authority, and TVA-
       SPP-19.3.
    - Time for project approval.
    - Actual cost and schedule to forecasted cost and schedule.
   Selected a sample of 33 projects at random to test for reclassified journal
    entries from one project to another.
   Obtained industry best practices for capital project approval and compared
    with TVA’s current practices.

The scope of our review included all capital projects approved in PowerPlant
since implementation in March 2011 through February 22, 2013.

This review was performed in accordance with the Council of the Inspectors
General for Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.




Evaluation 2012-14789                                                           Page 2

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Evaluation Report


FINDINGS AND RECOMMENDATIONS
We found TVA’s capital projects approval process is (1) generally timely,
(2) performed in accordance with TVA policies, and (3) incorporating best
practices. However, we found areas for improvement related to the timeliness of
Nuclear Power Group (NPG) project approvals and the forecasting of project
schedules.

The following provides a more detailed discussion of our findings.

CAPITAL PROJECTS APPROVAL PROCESS IS GENERALLY
TIMELY AND EFFICIENT

The average number of days to approve a project for TVA is 18 days, which we
consider to be a reasonable time frame. Additionally, the average number of
days to approve at each approver level appears to be reasonable. While project
approvals for TVA as a whole are being performed in a reasonable time frame,
the NPG average is more than double the overall TVA average. NPG has routed
132 projects for approval since the implementation of PowerPlant, with an
average of 43 days to approve. Due to the difference between the overall
average for TVA and NPG, there appears to be opportunity for improvement in
the timeliness of NPG project approvals.

To determine the average number of days it took each SBU to approve projects,
we analyzed the population of all capital projects approved since the
implementation of PowerPlant. The total population included 1,114 projects.
The following table shows the number of days to approve by each SBU.

                        Table 1: Average Days to Approve by SBU

                                  SBU           Average Days to Approve

                         Administration                   21
                         Energy Delivery                  13
                         Fossil Power Group               18
                         Financial Services               20
                         Generation
                                                          23
                         Construction
                         Nuclear Construction             21
                         NPG                              43
                         River Operations                 14
                         All SBUs                         18




Evaluation 2012-14789                                                               Page 3

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                         Evaluation Report


We tested the same projects for number of days to approve at each approver
level. The following table shows the average number of days at each approver
level.

               Table 2: Average Days to Approve by Approver Level

                                                              Average Days to
                                  Approver Level
                                                                 Approve

                        Project Manager                                1
                        Technical Reviewer                             1
                        Planning Engineer – Power
                                                3                      1
                        System Operations (PSO)
                        Product Line Manager – PSO                     2
                        Manager of Project Manager                     2
                        Project Sponsor                                2
                        Portfolio Manager                              5
                        SBU Officer                                    2
                        SBU Controller                                 1
                        SBU Executive                                  3
                        Financial Planning and Analysis                4
                        Chief Executive Officer
                                                                       8
                        (CEO) Direct Report
                        Chief Financial Officer                       11
                        President                                      3
                        TVA Board                                      4

Area for Improvement Exists Related to Forecasted Schedules
Additionally, we tested the sample of 50 projects to determine the accuracy of the
budget and schedule provided at the time of project approval. Of the 50 projects
in our sample, 20 projects had been completed, so we tested the budget for only
those projects. We identified one project that exceeded the approved budget by
more than 25 percent.

Of the 50 projects in our sample, 35 projects had passed their in-service4 date,
so we tested the schedule for only those projects. Our testing showed that 11 of
35 projects (31 percent) missed their approved in-service date by more than
25 percent. There were 8 projects that finished ahead of schedule by more than
25 percent. The degree to which the schedule is being missed indicates there is
potential for more accurate planning related to forecasted schedules.




3
  The PSO organization is now called Energy Delivery.
4
  An asset is deemed to be in-service when it is performing its intended function and providing benefit to
  TVA.
Evaluation 2012-14789                                                                               Page 4

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                    Evaluation Report


Inefficiency Existed in the Approval Workflow for Phase 1 (Study and
Preliminary Engineering)
According to TVA-SPP-19.3, Project Justification Process, Phase 1 can be
approved at a lower level while an $8 million project must be approved at the
President/CEO level. However, this approval workflow did not previously exist in
the PowerPlant system. Therefore, when an $8 million project was routed for
study phase approval of $250,000, it had to be systematically approved by the
same levels that would be required for the full project budget.

To alleviate this issue, TVA created a workaround process that required e-mails
be sent to those approvers that were not necessary for the study phase approval.
The e-mail notification alerted the approver to expect the approval request and
approve the project, even though their approval was not required. This process
was inefficient because it utilized a manual notification of users outside the
normal automated process. However, during the course of the audit, TVA
implemented the Phase 1 approval workflow for study phase approval in
PowerPlant, which resolved this inefficiency.

CAPITAL PROJECT APPROVAL PROCESS IS BEING
PERFORMED IN ACCORDANCE WITH TVA POLICIES
We tested the 50 judgmentally selected projects for compliance with TVA policy.
We found all the projects were approved at the appropriate level in compliance
with the chart on the following page from TVA-SPP-19.3, Project Justification
Process. There were seven projects in our sample that were approved for more
than $8 million. Each of these projects had an economic analysis review
performed to verify the economic benefits of the project are reasonable and
appropriate and to determine if alternative options have been fully considered.
Of the seven projects in our sample greater than $10 million, none of them were
initially approved after TVA-SPP-34.020, Capital Project Risk and Readiness
Review Process, was placed in effect in August 2012. However, one project
sought approval for Phase 3 in January 2013 and had an R3 performed at that
time.




Evaluation 2012-14789                                                        Page 5

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                 Evaluation Report


According to TVA-SPP-19.3, projects are authorized according to the following
authorization matrix shown in Table 3.

                                  Table 3: Authorization Authority
                                             SBU                     Chief
                         SBU Officer       Executive     CEO       Financial
     Total Capital          (Vice         (Senior VP              Officer and       TVA
                                                        Direct
     Project Cost         President      or Executive               Group          Board
                                                        Report
                            [VP])             VP)                 President

     > $50 Million                                                           

      > $8 Million                                                             

      > $2 Million                          
                                                                                     

      ≤ $2 Million            


In addition to the chart above, the study and preliminary engineering phase can
be authorized at the following levels to complete project feasibility: SBU Officer,
$100,000; SBU Executive, $250,000; and CEO Direct Report, $1 million.

Project Charges Are Appropriately Classified
During the previous OIG review of PowerPlant, a concern was raised that when
projects were not approved in a timely manner, charges for the project had to be
assigned to an approved project until final approval was received. At that time,
charges would be transferred to the new project. We randomly sampled
33 projects to test for project charges that had been reclassified from one project
to another. We looked for any large charges that had been reclassified within the
first two months after project approval. We identified one project that had a large
reclassification from a holding account. This project, along with several others,
was being approved during the transition to PowerPlant. A holding account was
set up to accrue the charges while awaiting approval. We did not consider this
an exception due to the software transition.




Evaluation 2012-14789                                                                      Page 6

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                           Evaluation Report


TVA HAS INCORPORATED BEST PRACTICES
We interviewed and obtained research related to best practices from the CP&EA
group. The CP&EA group has performed research to obtain information related
to utility peers and their project management practices. We also obtained best
practices from the Project Management Institute (PMI)5 Project Management
Body of Knowledge (PMBOK®),6 as well as PM Solutions7 PMO of the Year®
award.8

We found industry leaders in project management include stage gate9 approvals
or gate reviews for projects. In August 2012, TVA implemented the Capital
Project Risk and R3 Process. The objective of the R3 is to provide
comprehensive insight on project readiness to advance to the next phase as well
as the overall risk of meeting project targets for use in “go or no go” decision
making. The R3 process evaluates project management execution and
compares projects against TVA project management SPP and industry best
practices. This procedure is required for all Capital and Operations and
Maintenance projects with total costs greater than $10 million. An R3 is required
at the stage gate before approval for Phase 2 and Phase 3. According to the
Capital Productivity Group, the R3 process has identified about $38 million in
savings to projects since it began in 2012.

We also found industry leaders in project management have project oversight
committees that include subject matter experts from various disciplines
throughout the company. TVA began the PRB to provide oversight for TVA
projects and serve as a control for project approvals. The PRB does not approve
projects but reviews project requests and recommends projects for approval by
the CEO and CEO direct reports. The PRB includes one representative from
each SBU.

Industry leaders in project management also have Enterprise Project
Governance structures. Along with the PRB and the R3 process, TVA has
issued an SPP series on Project Management. The TVA-SPP-34 series includes
11 procedures that define TVA’s expectations for managing projects. TVA also
5
    PMI is one of the world’s largest not-for-profit membership associations for the project management
    profession.
6             ®
    PMBOK is a collection of processes and knowledge areas generally accepted as best practices within
                                                   ®
    the project management discipline. PMBOK is used by the MI to provide a consistent structure for the
    certification of Project Management Professionals and accreditation of degree-granting, educational
    programs in project management.
7
    PM Solutions is a project management solution and consulting firm that helps PMO (Project
    Management Office), project, and business leaders apply project and portfolio management process
    practices that drive performance and operational efficiency.
8                           ®
    The PMO of the Year award salutes a PMO that has demonstrated excellence and innovation in
    developing and maturing an organizational structure to support the effective management of projects. It
    is a showcase for PMOs that have demonstrated vision and business acumen in implementing new
    ideas, methods, or processes that led to measurable improvements in project management realizing
    business benefits for their organizations.
9
    A stage gate is defined as a point in a project or plan at which development can be examined and any
    important changes or decisions related to costs, resources, profits, etc., can be made.
Evaluation 2012-14789                                                                                Page 7

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Evaluation Report


has a Project Management Peer Team whose mission is to incorporate industry
best practices into internal processes to improve and standardize project
management processes for Capital and Operations and Maintenance projects
across TVA. The Peer Team is directed by the PRB to review and discuss
issues and options to arrive at the best solutions for the agency.

According to the former Director, CP&EA, the goal of the Capital Productivity
Initiative was to do projects right and to do the right projects. Additionally, the
PRB, R3, and new governance structure have been set up to ensure projects are
done right and overall, the new processes have greatly increased the
transparency and accountability for capital projects throughout the company.

RECOMMENDATIONS
The OIG recommends the VP, Nuclear Business Operations, evaluate the
approval process for Nuclear capital projects to identify opportunities to improve
the timeliness of project approvals.

The OIG recommends the Director, CP&EA, evaluate the planning and
forecasting process to identify areas for improvement.

TVA Management’s Comments – The VP, Nuclear Business Operations,
provided a written response to a draft of this report. He agreed with the findings
and recommendations in this report (see the Appendix for his complete
response).

In response to the recommendation, Nuclear Business Operations management
has reviewed and implemented measures which will serve to remediate the
identified opportunity for improvement. The changes were implemented as part
of NPG-SPP-19.6 Rev 0 – NPG Project Management Process on July 31, 2013.

The Director, CP&EA, had no comments on the draft report.

Auditor’s Response – The OIG concurs with the comments and completed
actions to address our recommendation received from the VP, Nuclear Business
Operations. We will assess the response of the CP&EA organization as part of
our normal recommendation follow-up process.




Evaluation 2012-14789                                                          Page 8

                                  TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 1 of 1




TVA RESTRICTED INFORMATION
